App. 1
United States Court of Appeals
for the Eighth Circuit
No. 20-1967
Frank C. Warner
Plaintiff - Appellant
v.
U.S. Department of Education,
[Miguel Cardona, Secretary, Secretary]1
Defendant - Appellee
Appeal from United States District Court
for the Eastern District of Arkansas - Northern
Submitted: February 3, 2021
Filed: February 9, 2021
[Unpublished]

Before KELLY, MELLOY, and GRASZ, Circuit Judges.

1 [Miguel Cardona, Secretary, replaced Phil Rosenfelt, Acing
Secretary].

App. 2
PER CURIAM.
Frank Warner appeals the district court’s2 adverse
grant of summary judgment in his action appealing
the Department of Education’s (DOE’s) administrative
decision upholding the validity of his student loan.
Upon careful review, we affirm. See El Dorado Chem.
Co. v. U.S. Env’t Prot. Agency. 763 F.3d 950, 955 (8th
Cir. 2014) (de novo review of district court’s decision
whether agency action violates Administrative Proce­
dure Act; reviewing court shall uphold agency action
unless it is arbitrary and capricious). We agree that the
DOE’s decision finding Warner’s loan enforceable was
not arbitrary and capricious, as the administrative rec­
ord established the loan’s existence, assignation to the
DOE, and default status. See United States v. PetroffKline. 557 F.3d 285, 290 (6th Cir. 2009) (to recover on
promissory note, government must show that defend­
ant signed it, government is present owner or holder,
and note is in default). We also find that the district
court did not abuse its discretion in denying Warner’s
motion to strike, see Waldoch v. Medtronic. Inc.. 757
F.3d 822, 829 (8th Cir. 2014) (standard of review); Si­
erra Club v. U.S. Army Corps of Eng’rs. 771 F.2d 409,
413 (8th Cir. 1985) (existing administrative record
may be supplemented by affidavits or other explana­
tory proof); or exhibit bias in its ruling, see Litekv
v. United States. 510 U.S. 540, 555 (1994) (judicial

2 The Honorable D.P. Marshall Jr., Chief Judge, United
States District Court for the Eastern District of Arkansas.

App. 3
rulings alone almost never constitute valid basis for
finding of bias).
The judgment is affirmed. See 8th Cir. R. 47B.

App. 4
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
NORTHERN DIVISION
FRANK C. WARNER
v.

PLAINTIFF

No. 3:18-cv-169-DPM

U.S. DEPARTMENT
OF EDUCATION,
Betsy DeVos, Secretary

DEFENDANT

ORDER
(Filed May 4, 2020)
In the 1970’s and 1980’s, Warner took out some
student loans for graduate school and then consoli­
dated three of them. The original total on this consoli­
dated loan was approximately $14,500. The current
amount due, with penalties and interest, is allegedly
north of 540,000. He made some payments; he also put
his consolidated loan in deferment and forbearance for
periods of time. By early 1995, the original, signed
promissory note for the consolidated loan had been
lost. Later that year, Warner defaulted. In 1999, more
than twenty years ago, his debt was assigned to the
Department of Education, which received a mostly il­
legible copy of the original promissory note. Since 2003,
the Department has collected payments from Warner
through the Treasury Offset Program - taking tax re­
funds, Social Security benefits, and other government
payments. Based on the low-quality copy of the prom­
issory note, Warner challenged the offset payments.

App. 5
The Department rejected his challenge, concluding
that Warner’s debt was enforceable. He then brought
this case.
Warner and the Department each seek judgment
on the administrative record. Warner mostly seeks
monetary and injunctive relief; he also says the De­
partment’s decision rejecting his challenge was arbi­
trary and capricious. The Department seeks judgment
on the basis that Warner’s debt is enforceable. To the
extent Warner’s claims are beyond the Administrative
Procedure Act, the Court has taken the material facts,
where genuinely disputed, in the light most favorable
to the non-moving party. Smith-Bunge u. Wisconsin
Central, Ltd., 946 F.3d 420, 424 (8th Cir. 2019).
Warner’s motion to strike the Department’s exhib­
its outside the record is denied. The Department’s affi­
davits and the legible copy of the sample promissory
note, which (according to those affidavits) mirrors
Warner’s, helped explain the record to the Court; they
did not alter or expand the Department’s rationale for
its decision. Doc. 34-1 at 5; Sierra Club v. U.S. Army
Corps of Engineers, 771 F.2d 409, 413 (8th Cir. 1985).
Warner asserts many federal and state claims. His
core premise, though, is that the Department can’t en­
force his debt without producing a legible promissory
note signed by him. As he puts it, “No promissory note,
no loan!” Doc. 25 at 1.
This premise is incorrect. To enforce Warner’s
debt, the Department must show that he signed a
promissory note, the Department holds the note, and

App. 6
the note is in default. United States v. Petroff-Kline,
557 F.3d 285,290 (6th Cir. 2009). The Department may
show evidence of the note; it need not produce the orig­
inal, signed instrument. Petroff-Kline, 557 F.3d at 285;
see also United States v. Carter, 506 F. App’x 853, 85859 (11th Cir. 2013) (per curiam) (unpublished opinion
with only persuasive authority, Eleventh Circuit Rule
36-2). Here, the record satisfies these elements; and
Warner does not genuinely dispute any of them. In his
response to the Department’s motion for judgment,
Warner denies signing the promissory note for the con­
solidated loan. Doc. 44 at 12-13. In the same paper,
though, Warner “does not dispute the existence of three
loans consolidated into one loan.” Doc. 44 at 16. And, in
the record, Warner refers to his loans’ promissory notes
as “the actual document(s) which I signed almost 30
years ago” and “the promissory notes that I signed.” AR
52 & 57. He never denies signing any of these notes.
Between Warner’s social security number on the almost-illegible copy, his signature on the forbearance
and deferment agreements, and the other documenta­
tion of his loan, the Department has provided sufficient
evidence that Warner’s debt exists and thus is enforce­
able. The Department’s inability to produce Warner’s
original, signed promissory note, or a legible copy of it,
doesn’t make a material difference. Warner’s claims
therefore fail.
The Arkansas statute of frauds doesn’t help
Warner for two reasons. First, loans where there was a
complete performance on one side at the time the con­
tract was made generally don’t fall within statutes of

App. 7
frauds. Restatement (Second) of Contracts § 130(2)
& Comment d (1981). There’s no good reason for
thinking Arkansas would depart from this general
understanding in applying its statute. Ark. Code
Ann. § 4-59-101(a)(6). This is especially true here be­
cause, for years Warner partly performed, too, either
making payments on the consolidated loan or putting
it in forbearance and deferment. Talley u. Blackmon,
271 Ark. 494, 497, 609 S.W.2d 113,115 (Ct. App. 1980).
Second, a statute-of-frauds argument is a poor fit be­
cause the Department did not enter into a bilateral
contract with Warner. Rather, Warner’s debt was as­
signed to the Department, by which point the origi­
nal promissory note had already been lost. In these
circumstances, the Uniform Commercial Code illu­
minates by analogy. Promissory notes for federally
backed student loans are not negotiable instruments,
but the UCC can still offer guidance in these odd cir­
cumstances. See Carter, 506 F. App’x at 858-59; 22 WiLliston on Contracts § 60:10 (4th ed.). In general, of
course, a party seeking to enforce a promissory note
must possess it. But, in certain circumstances, a party
can enforce even a lost or destroyed note. U.C.C. § 3309; Williston, supra, at § 60:50. This settled UCC
rule also suggests that the Department can enforce
Warner’s debt based on the poor copy of the note in its
possession.
Warner has made other requests. He asked the
Court to rule within thirty days on his motion for judg­
ment. Doc. 26 at 2. The Court couldn’t do so because
of other pressing matters. Warner also made a passing

App. 8
request to amend his complaint to assert fraud and
perjury found during discovery. Doc. 42 at 2. He fleshed
out these points in his briefing. Whatever the merit in
the Department’s many responding sovereign immun­
ity arguments, the request to amend is denied as futile.
Zutz v. Nelson, 601 F.3d 842,850-51 (8th Cir. 2010). The
alleged fraud involves the core dispute about the debt,
the offset collections, and the Department’s failure to
pay Warner interest on those amounts. E.g., Doc. 26 at
12-13, 27 & 31-33. (Warner estimates that the Depart­
ment now owes him approximately $5 million. E.g.,
Doc. 30 at 2.) These allegations succumb to the Court’s
ruling about the debt’s validity. And perjury is a crime,
not a civil claim. Even construed as a felony tort claim,
Ark. Code Ann. § 16-118-107, this allegation fails be­
cause it is of a piece with the core dispute. Finally,
Warner also asked the Court to consider whether his
situation is unique or whether the Department has
treated others as it has allegedly treated him. Doc. 43
at 2. That is not a proper inquiry for this case, which
only concerns Warner.
Warner’s motion to strike, Doc. 42, is denied. The
debt is enforceable. The Department’s collection through
offsets, and denial of Warner’s request for relief from
those offsets, was not arbitrary, capricious, or contrary
to law. Warner’s claims fail as a matter of law on the
record presented. Warner’s motion for judgment, Doc.
25, is denied. The Department’s motion for judgment,
Doc. 33, is granted. The Court will dismiss all of
Warner’s federal and state claims with prejudice.

App. 9
So Ordered.
/s/ D.P. Marshall Jr._________
D.P. Marshall Jr.
United States District Judge
4 May 2020

App. 10
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
NORTHERN DIVISION
FRANK C. WARNER
v.

PLAINTIFF

No. 3:18-cv-169-DPM

U.S. DEPARTMENT
OF EDUCATION,
Betsy DeVos, Secretary

DEFENDANT

JUDGMENT
Warner’s federal and state claims are dismissed
with prejudice.
/s/ D.P, Marshall Jr._________
D.P. Marshall Jr.
United States District Judge
4 May 2020

App. 11
Plaintiff’s Collective Exhibit 4-D

•«P a

i

\
i

*2
i

i
i

PjS

i

:

i

i

i
j

i
j

i

&

>•-

%

«■»*«•.

?

i
!

i

• poarScrmooOii^xial
•wfllbexetaSnpdmport&Eo
poanmoats-w

2 gggr ocgTA.-VAgu.nta
1A*p«m*ggpifcg&gH|3

RECEIVED
[Illegible]

App. 12
Plaintiff’s Collective Exhibit 4-D
“I DECLARE UNDER PENALTY OF
PERJURY THAT THE FOREGOING
IS A TRUE AND CORRECT COPY OF
THE ORIGINAL PROMISSORY NOTE.”
SIGNATURE: Christine Taylor
TITLE: COLLECTION SUPPORT PROGRAM SPECIALIST,

DATE:

AUG 28.1998
RECEIVED
By [Illegible]

